No._____________

In The
Supreme Court of the United States
ALFORNIA JASON WALL, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached Petition for Writ of Certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis
and was represented by appointed counsel in the United States Court of Appeals for
the Fourth Circuit.
The appointment was made under the following provision of law: Criminal
Justice Act of 1964, 18 U.S.C ยง 3006A.
Respectfully submitted this 6th day November 2020.

Seth A. Neyhart
Counsel of Record
Law Office of Seth A. Neyhart
331 West Main Street
Suite 401
Durham, NC 27701
(919) 229-0858
setusn@hotmail.com
Counsel for Petitioner

